No. 19In The
SUPREME COURT of the UNITED STATES

MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents

On Petition For Writ Of Certiorari
to the United States Court of Appeals for the Ninth
Circuit

PETITION FOR WRIT OF CERTIORARI
APPENDIX PART E

Mary F. Chapman, Esq.
Counsel of Record
Law Office of Mary F. Chapman, Ltd.
8440 West Lake Mead Blvd. #203
Las Vegas, Nevada 89128
(702)202-4223

TABLE OF CONTENTS
APPENDIX PART E
Statutory provisions ....................................117a-138a

i

42 U.S.C.A. § 12112
§ 12112. Discrimination
(a) General rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.
(b) Construction
As used in subsection (a), the term “discriminate
against a qualified individual on the basis of
disability” includes-(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely affects
the opportunities or status of such applicant or
employee because of the disability of such applicant

117a

or employee;
(2) participating in a contractual or other
arrangement or relationship that has the effect of
subjecting a covered entity's qualified applicant or
employee with a disability to the discrimination
prohibited by this subchapter (such relationship
includes a relationship with an employment or
referral agency, labor union, an organization
providing fringe benefits to an employee of the
covered entity, or an organization providing training
and apprenticeship programs);
(3) utilizing standards, criteria, or methods of
administration-(A) that have the effect of discrimination on the basis
of disability; or
(B) that perpetuate the discrimination of others who
are subject to common administrative control;

118a

(4) excluding or otherwise denying equal jobs or
benefits to a qualified individual because of the
known disability of an individual with whom the
qualified individual is known to have a relationship
or association;
(5)(A) not making reasonable accommodations to the
known physical or mental limitations of an otherwise
qualified individual with a disability who is an
applicant or employee, unless such covered entity
can demonstrate that the accommodation would
impose an undue hardship on the operation of the
business of such covered entity; or
(B) denying employment opportunities to a job
applicant or employee who is an otherwise qualified
individual with a disability, if such denial is based on
the need of such covered entity to make reasonable
accommodation to the physical or mental

119a

impairments of the employee or applicant;
(6) using qualification standards, employment tests
or other selection criteria that screen out or tend to
screen out an individual with a disability or a class of
individuals with disabilities unless the standard, test
or other selection criteria, as used by the covered
entity, is shown to be job-related for the position in
question and is consistent with business necessity;
and
(7) failing to select and administer tests concerning
employment in the most effective manner to ensure
that, when such test is administered to a job
applicant or employee who has a disability that
impairs sensory, manual, or speaking skills, such
test results accurately reflect the skills, aptitude, or
whatever other factor of such applicant or employee
that such test purports to measure, rather than

120a

reflecting the impaired sensory, manual, or speaking
skills of such employee or applicant (except where
such skills are the factors that the test purports to
measure).
(c) Covered entities in foreign countries
(1) In general
It shall not be unlawful under this section for a
covered entity to take any action that constitutes
discrimination under this section with respect to an
employee in a workplace in a foreign country if
compliance with this section would cause such
covered entity to violate the law of the foreign
country in which such workplace is located.
(2) Control of corporation
(A) Presumption
If an employer controls a corporation whose place of
incorporation is a foreign country, any practice that

121a

constitutes discrimination under this section and is
engaged in by such corporation shall be presumed to
be engaged in by such employer.
(B) Exception
This section shall not apply with respect to the
foreign operations of an employer that is a foreign
person not controlled by an American employer.
(C) Determination
For purposes of this paragraph, the determination of
whether an employer controls a corporation shall be
based on-(i) the interrelation of operations;
(ii) the common management;
(iii) the centralized control of labor relations; and
(iv) the common ownership or financial control,

of the employer and the corporation.

122a

(d) Medical examinations and inquiries
(1) In general
The prohibition against discrimination as referred to
in subsection (a) shall include medical examinations
and inquiries.
(2) Preemployment
(A) Prohibited examination or inquiry
Except as provided in paragraph (3), a covered entity
shall not conduct a medical examination or make
inquiries of a job applicant as to whether such
applicant is an individual with a disability or as to
the nature or severity of such disability.
(B) Acceptable inquiry
A covered entity may make preemployment inquiries
into the ability of an applicant to perform job-related
functions.
(3) Employment entrance examination

123a

A covered entity may require a medical examination
after an offer of employment has been made to a job
applicant and prior to the commencement of the
employment duties of such applicant, and may
condition an offer of employment on the results of
such examination, if-(A) all entering employees are subjected to such an
examination regardless of disability;
(B) information obtained regarding the medical
condition or history of the applicant is collected and
maintained on separate forms and in separate
medical files and is treated as a confidential medical
record, except that-(i) supervisors and managers may be informed
regarding necessary restrictions on the work or
duties of the employee and necessary
accommodations;

124a

(ii) first aid and safety personnel may be informed,
when appropriate, if the disability might require
emergency treatment; and
(iii) government officials investigating compliance
with this chapter shall be provided relevant
information on request; and
(C) the results of such examination are used only in
accordance with this subchapter.
(4) Examination and inquiry
(A) Prohibited examinations and inquiries
A covered entity shall not require a medical
examination and shall not make inquiries of an
employee as to whether such employee is an
individual with a disability or as to the nature or
severity of the disability, unless such examination or
inquiry is shown to be job-related and consistent
with business necessity.

125a

(B) Acceptable examinations and inquiries
A covered entity may conduct voluntary medical
examinations, including voluntary medical histories,
which are part of an employee health program
available to employees at that work site. A covered
entity may make inquiries into the ability of an
employee to perform job-related functions.
(C) Requirement
Information obtained under subparagraph (B)
regarding the medical condition or history of any
employee are subject to the requirements of
subparagraphs (B) and (C) of paragraph (3).
Effective: October 19, 1996
42 U.S.C.A. § 1983
§ 1983. Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State

126a

or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a
judicial officer for an act or omission taken in such
officer's judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.

127a

N.R.S. 613.330
613.330. Unlawful employment practices:
Discrimination on basis of race, color, religion, sex,
sexual orientation, gender identity or expression,
age, disability or national origin; interference with
aid or appliance for disability; refusal to permit
service animal at place of employment
1. Except as otherwise provided in NRS 613.350, it is
an unlawful employment practice for an employer:
(a) To fail or refuse to hire or to discharge any
person, or otherwise to discriminate against any
person with respect to the person's compensation,
terms, conditions or privileges of employment,
because of his or her race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin; or
(b) To limit, segregate or classify an employee in a

128a

way which would deprive or tend to deprive the
employee of employment opportunities or otherwise
adversely affect his or her status as an employee,
because of his or her race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin.
2. It is an unlawful employment practice for an
employment agency to:
(a) Fail or refuse to refer for employment, or
otherwise to discriminate against, any person
because of the race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin of that person; or
(b) Classify or refer for employment any person on
the basis of the race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin of that person.

129a

3. It is an unlawful employment practice for a labor
organization:
(a) To exclude or to expel from its membership, or
otherwise to discriminate against, any person
because of his or her race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin;
(b) To limit, segregate or classify its membership, or
to classify or fail or refuse to refer for employment
any person, in any way which would deprive or tend
to deprive the person of employment opportunities,
or would limit the person's employment
opportunities or otherwise adversely affect the
person's status as an employee or as an applicant for
employment, because of his or her race, color,
religion, sex, sexual orientation, gender identity or
expression, age, disability or national origin; or

130a

(c) To cause or attempt to cause an employer to
discriminate against any person in violation of this
section.
4. It is an unlawful employment practice for any
employer, labor organization or joint
labor-management committee controlling
apprenticeship or other training or retraining,
including, without limitation, on-the-job training
programs, to discriminate against any person
because of his or her race, color, religion, sex, sexual
orientation, gender identity or expression, age,
disability or national origin in admission to, or
employment in, any program established to provide
apprenticeship or other training.
5. It is an unlawful employment practice for any
employer, employment agency, labor organization or
joint labor-management committee to discriminate

131a

against a person with a disability by interfering,
directly or indirectly, with the use of an aid or
appliance, including, without limitation, a service
animal, by such a person.
6. It is an unlawful employment practice for an
employer, directly or indirectly, to refuse to permit
an employee with a disability to keep the employee's
service animal with him or her at all times in his or
her place of employment.
7. As used in this section, “service animal” has the
meaning ascribed to it in NRS 426.097.
42 U.S.C.A. § 2000e
§ 2000e. Definitions
Currentness
For the purposes of this subchapter-(a) The term “person” includes one or more
individuals, governments, governmental agencies,

132a

political subdivisions, labor unions, partnerships,
associations, corporations, legal representatives,
mutual companies, joint-stock companies, trusts,
unincorporated organizations, trustees, trustees in
cases under Title 11, or receivers.
(b) The term “employer” means a person engaged in
an industry affecting commerce who has fifteen or
more employees for each working day in each of
twenty or more calendar weeks in the current or
preceding calendar year, and any agent of such a
person, but such term does not include (1) the United
States, a corporation wholly owned by the
Government of the United States, an Indian tribe, or
any department or agency of the District of Columbia
subject by statute to procedures of the competitive
service (as defined in section 2102 of Title 5), or (2) a
bona fide private membership club (other than a

133a

labor organization) which is exempt from taxation
under section 501(c) of Title 26, except that during
the first year after March 24, 1972, persons having
fewer than twenty-five employees (and their agents)
shall not be considered employers.
(l) The term “complaining party” means the
Commission, the Attorney General, or a person who
may bring an action or proceeding under this
subchapter.
(m) The term “demonstrates” means meets the
burdens of production and persuasion.
(n) The term “respondent” means an employer,
employment agency, labor organization, joint
labor-management committee controlling
apprenticeship or other training or retraining
program, including an on-the-job training program,
or Federal entity subject to section 2000e-16 of this

134a

title.
42 U.S.C.A. § 2000e-2
§ 2000e-2. Unlawful employment practices
(a) Employer practices
It shall be an unlawful employment practice for an
employer-(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual's race, color, religion, sex, or national
origin; or
(2) to limit, segregate, or classify his employees or
applicants for employment in any way which would
deprive or tend to deprive any individual of
employment opportunities or otherwise adversely
affect his status as an employee, because of such

135a

individual's race, color, religion, sex, or national
origin.
(h) Seniority or merit system; quantity or quality of
production; ability tests; compensation based on sex
and authorized by minimum wage provisions
Notwithstanding any other provision of this
subchapter, it shall not be an unlawful employment
practice for an employer to apply different standards
of compensation, or different terms, conditions, or
privileges of employment pursuant to a bona fide
seniority or merit system, or a system which
measures earnings by quantity or quality of
production or to employees who work in different
locations, provided that such differences are not the
result of an intention to discriminate because of race,
color, religion, sex, or national origin, nor shall it be
an unlawful employment practice for an employer to

136a

give and to act upon the results of any professionally
developed ability test provided that such test, its
administration or action upon the results is not
designed, intended or used to discriminate because of
race, color, religion, sex or national origin. It shall
not be an unlawful employment practice under this
subchapter for any employer to differentiate upon
the basis of sex in determining the amount of the
wages or compensation paid or to be paid to
employees of such employer if such differentiation is
authorized by the provisions of section 206(d) of Title
29.
(j) Preferential treatment not to be granted on
account of existing number or percentage imbalance
Nothing contained in this subchapter shall be
interpreted to require any employer, employment
agency, labor organization, or joint

137a

labor-management committee subject to this
subchapter to grant preferential treatment to any
individual or to any group because of the race, color,
religion, sex, or national origin of such individual or
group on account of an imbalance which may exist
with respect to the total number or percentage of
persons of any race, color, religion, sex, or national
origin employed by any employer, referred or
classified for employment by any employment agency
or labor organization, admitted to membership or
classified by any labor organization, or admitted to,
or employed in, any apprenticeship or other training
program, in comparison with the total number or
percentage of persons of such race, color, religion,
sex, or national origin in any community, State,
section, or other area, or in the available work force
in any community, State, section, or other area.

138a

